No. ________

IN THE

Supreme Court of the United States

d
ROBERT S. CARLBORG ,

Petitioner,

—v.—

UNITED STATES DEPARTMENT

OF

NAVY,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR WRIT OF CERTIORARI

CHARLES W. GITTINS
Counsel of Record
139 Mallard Drive
Lake Frederick, Virginia 22630
(540) 327-2208
cgittins@aol.com
Counsel for Petitioner

i
QUESTION PRESENTED
Barring a general or specific exemption for a SOR
claimed by an agency, does an individual making a
first party request for his own record retrieved by his
name or other personal identifier under the Privacy
Act gain unrestricted access regardless of whether
the requestor’s record contains material that may
have been authored by another individual that is not
retrieved by the name of the individual within the
requestor’s record?

ii
PARTIES TO THE PROCEEDINGS
Petitioner was the plaintiff in the district court and
appellant in the Court of Appeals for the District of
Columbia Circuit.
Respondent is the Department of the Navy, which
was the agency defendant in the district court and
appellee in the District of Columbia Circuit.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioner, Robert Carlborg is a private citizen.
There are no other real parties in interest
represented by undersigned counsel. There are no
corporations and/or publicly held companies for whom
stock is owned or held by Petitioner.

iv
STATEMENT OF RELATED PROCEEDINGS
This case arises from the following proceedings:
Carlborg v. Department of the Navy, No. 18-1881
(D.D.C.) (order entering judgment in favor of
defendant, filed August 10, 2020 (Appendix A);
Carlborg v. Department of the Navy, No. 20-5311
(D.C. Cir.) (opinion affirming judgment of the District
Court, issued on March8, 2021 (Appendix B); and
Carlborg v. Department of the Navy, No. 20-5311
(D.C. Cir.) (opinion on reconsideration, affirming
judgment of the District Court issued on May 11,
2021 (Appendix C).
There are no other proceedings in state or federal
trial or appellate courts, or in this Court, directly
related to this case within the meaning of this Court’s
Rule 14.1(b)(iii).

v
TABLE OF CONTENTS

PAGE

QUESTION PRESENTED ........................................... i
PARTIES TO PROCEEDINGS ................................... ii
CORPORATE DISCLOSURE STATEMENT ............ iii
STATEMENT OF RELATED PROCEEDINGS ........ iv
TABLE OF AUTHORITIES ...................................... vii
PETITION FOR WRIT OF CERTIORARI ................. 1
OPINIONS BELOW .................................................... 1
JURISDICTION........................................................... 2
STATUTORY PROVISIONS INVOLVED .................. 2
STATEMENT OF THE CASE..................................... 2
REASONS FOR GRANTING THE PETITION .......... 3
Privacy Act Legal Standards ................................. 4
Personal Access to Agency Documents Under
Privacy Act ........................................................ 6
The Question is Important, and This Case
Presents It Cleanly ........................................... 6
CONCLUSION ............................................................ 9

vi
APPENDIX TABLE OF CONTENTS

PAGE

APPENDIX A: Memorandum Opinion of the United
States Court of Appeals for the District of
Columbia, dated August 10, 2020 ........................ 1a
APPENDIX B: Order of the United States Court of
Appeals for the District of Columbia,
filed May 11, 2021 .............................................. 21a
APPENDIX C: Order of the United States Court of
Appeals for the District of Columbia,
filed March 8, 2021 ............................................. 23a
APPENDIX D: 5 U.S. Code § 552a – Records
Maintained on Individuals ................................. 26a
APPENDIX E: Federal Register, Office of
Management and Budget, Privacy Act
Implementation, Guidelines and
Responsibilities, Page 28957.............................. 59a

vii
TABLE OF AUTHORITIES

PAGE(S)

Cases
Doe v. Chao,
540 U.S. 614 (2004) ............................................... 4
Henke v. U.S. Dep’t of Commerce,
83 F.3d 1445 (D.C. Cir. 1996) ................................ 7
Sussman v. U.S. Marshal’s Service,
494 F.3d 1106 (D.C. Cir. 2007) .......................... 5, 6
Voelker v. IRS,
646 F.2d 332 (8th Cir. 1981) .................................. 8
Statutes
Freedom of Information Act, 5 U.S.C. § 552 ...... passim
The Privacy Act, 5 U.S.C. § 552a ....................... passim
Other Authorities
DoD Warning Banner: DoDCIO.defense.gov/
Portals/0/Documents/DoDBanner.pdf. .................... 5

PETITION FOR WRIT OF CERTIORARI
This petition presents a clear circuit split on the
meaning and effect of the Privacy Act and ability of a
requester to obtain information concerning himself
from an agency in order to determine whether the
records pertaining to him are accurate and for
procedures for individuals to challenge information in
their records and to seek amendments to the record if
appropriate, under the provisions of the Privacy Act.
The D.C. Circuit has reached a narrow application
of the Privacy Act limiting a requester to documents
unquestionably contained in his agency record based
upon in incorrect interpretation of an OMB Circular.
The Eighth Circuit, to the contrary, provides the
correct interpretation of the Privacy Act reliant upon
the plain meaning of the statute, allowing a requester
to obtain those documents contained in his or her
record despite the inclusion of a document about the
requester authored by another person
This case provides the opportunity to resolve the
tension between the clear unambiguous provision of
statute
versus
the
D.C.
Circuit
incorrect
interpretation of the OMB Circular to limit a
requestor’s access to Privacy Act information.
OPINIONS BELOW
The District Court’s decision denying judgment as
a matter of law is unreported and was decided on
March 8, 2021 and is found at Appendix A. The
District of Columbia Circuit’s Summary Affirmance
was decided on March 8, 2021. Appendix B. The D.C.
Circuit denied reconsideration on May 11, 2021.
Appendix C.

2
JURISDICTION
The D.C. Circuit issued its decision on
reconsideration on May 11, 2021. On March 19, 2020,
this Court extended the deadline to file any petition
for writ of certiorari due or after that date to 150 days
and was clarified on July 19, 2021. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The relevant provisions of the Privacy Act, 5 U.S.C.
§ 552a is found at Appendix D. Office of Management
and Budget Circular No. A-108, Federal Register
Volume 40, No. 132 (July 9, 1975) is found at
Appendix E.
STATEMENT OF THE CASE
Beginning in March 2017, Carlborg made Privacy
Act (“PA”) requests to the Marine Corps seeking
copies of any and all records maintained on him
within the System of Records (“SOR”) MJA00017,
which includes Headquarters Marine Corps
(“HQMC”) Judge Advocate (“JA”) Division, HQMC
Correspondence Control Files, and any and all
records maintained on him within the SOR
MJA00018 Performance File, 1 which contains records
of Marine Corps members “who, while on active
duty or in a reserve status, become the subject of
investigation, indictment, or criminal proceedings
by military or civilian authorities.”
Using Freedom of Information Act (“FOIA”) online
on January 5, 2018, Carlborg submitted two new PA
1

years.

The SOR MJA00018 documents retention period is 50

3
requests for the same two SORs as HQMC had never
released any material under the PA, only under the
FOIA, nor had they ever addressed the reasons why
the PA had been ignored. On January 12, 2018,
HQMC provided 161 pages of material for both
requests and were then closed out administratively
as duplicate. The Department of the Navy did not
claim any Privacy Act exemption for non-disclosure.
Carlborg filed his Complaint in the District Court
for the District of Columbia on August 13, 2018. The
Court granted Summary Judgment to the
Department of the Navy by Order dated August 10,
2020. Petitioner appealed to the District of Columbia
Circuit Court of Appeals by filing Notice of Appeal on
October 13, 2020. The D.C. Circuit granted Summary
Affirmance to the Department of the Navy on March
8, 2021. Carlborg submitted a timely request for
reconsideration, which was denied by the D.C. Circuit
on May 11, 2021.
REASONS FOR GRANTING THE PETITION
In its summary decision and order and in decision
on reconsideration, the court below examining the
meaning and effect of the Privacy Act, 5 U.S.C. §
552a, ignored critical provisions and critical
regulatory rules cabining the disclosure of Carlborg’s
Privacy Act documents subject to disclosure. As
demonstrated below, the facts and court’s summary
examination demonstrate that the Agency improperly
withheld and improperly redacted Carlborg’s Privacy
Act documents. With respect to the Privacy Act, the
D.C. Circuit concluded that:
the district court correctly concluded that
appellee correctly and properly withheld
information pertaining to third parties who

4
had not provided their consent to disclosure
of that information.
Order at 1 Appendix B. This conclusion is simply
inaccurate as no specific PA ground for exemption
was ever claimed by the agency below.
Privacy Act Legal Standards.
The Privacy Act, 5 U.S.C. § 552a, “regulates the
‘collection, maintenance, use, and dissemination of
information’ about individuals by federal agencies.”
Doe v. Chao, 540 U.S. 614, 618 (2004). The statute
provides that, if any federal agency maintains a
“system of records,” it must “upon request by any
individual to gain access to his record or to any
information pertaining to him which is contained in
the system, permit him ... to review the record and
have a copy made of all or any portion thereof in a
form comprehensible to him.” 5 U.S.C. § 552a(d)(1).
The statute defines a “system of records” as “a
group of any records under the control of any agency
from which information is retrieved by the name of
the individual or by some identifying number,
symbol, or other identifying particular assigned to the
individual.” Id. § 552a(a)(5) (emphasis supplied). The
Privacy Act provides statutory exemptions. See
5 U.S.C. § 552a(j)-(k). No Privacy Act statutory
exemption was ever claimed by Respondent and none
apply to Carlborg’s request. 2 Most of the documents
2

The Department of Defense Mandatory and Consent to
use of e-mail provides that “communications using or data
stored in . . . are not subject to routine monitoring, interception
and search and may be disclosed for any U.S. Government
purpose” https://cascom.army.mil/docs/dod-aup.pdf. The Privacy
Act is a U.S. Government authorized purpose. Some or all the
documents withheld from Carlborg included e-mails.

5
denied by Respondent are e-mails, for which there is
no privacy provision in Government e-mail systems.
See DoD Warning Banner:
Communications using, or data stored on,
this information system are not private, are
subject to routine monitoring, interception,
and search, and may be disclosed or used for
any U.S. Government-authorized purpose.
See DoDCIO.defense.gov/Portals/0/Documents/DoDBan
ner.pdf.
Under the Privacy Act, Carlborg requested
documents relating to himself contained in specified
SORs (i.e., a first party request), all of which were
retrieved solely by his name or other personal
identifier and not contained in another person’s PA
record. This is what is required of any Privacy Act
requester. The D.C. Circuit in this case and in
Sussman v. U.S. Marshals Serv., 494 F.3d 1106 n.9
(D.C. Cir. 2007), upon which the court below relied
upon for decision, the decision erroneously
improperly narrowly construed the Privacy Act.
Unlike the FOIA, 3 the Privacy Act provides no
statutory exemption for third party privacy
protection. Cf. 5 U.S.C. § 552a(k)(5) (protecting only
confidential source-identifying information in a case
where person providing information was provided
with an express promise of confidentiality) and 5
U.S.C. § 552a(j)(2) (exemption if, and only if, the
agency provides a specific exemption for release
relating to arrest, indictment through release from
supervision under criminal laws).

3

See FOIA, 5 U.S.C. § 552(b)(6), (7)(C).

6
Personal Access to Agency Documents Under
Privacy Act
The purpose of this provision of the Privacy Act is
to facilitate the access by informing requesters that
the Government maintains “only such information
about an individual as is necessary to accomplish a
purpose of the agency required to be accomplished by
statute or by executive order of the President.” 5
U.S.C. § 552a(e)(1). The only way that a requester
may evaluate the agency record about him/her is to
view it. 5 U.S.C. §§ 552a(d)(2)-(4) provide for
procedures for individuals to challenge information in
their records and to seek amendments to the record if
appropriate, and actual review of the record is
necessary for these proper purposes.
If Congress had intended to shield from disclosure
information in one person’s own record retrieved by
his own name or personal identifier that contains
collateral information about another person, such as
an investigator who prepared a document contained
in the requestor’s record, it could have and
presumably would have added an exemption to
Sections 3(j) or 3(k) of the Privacy Act. Further
Section 552a(k) may promulgate rules to exempt
certain systems of records from the provisions of the
Privacy Act. No such statutory exemption in the
SORNs involved in Petitioner’s case included such
exemptions and none were claimed by the
Department of the Navy at the agency administrative
proceedings.
The Question is Important, and This Case
Presents It Cleanly
In the D.C. Circuit, in Petitioner’s case and
previously, the Court has relied upon an OMB
Guidance Circular dated July 1975. See Sussman,

7
494 F.3d at 1120. In that Circular, the OMB provides
two examples illustrating the disclosure under the
Privacy Act at page 28957:
1. A record on Joan Doe as an employee in a
file of employee in a file of employees from
which material is accessed by reference to
her name (or some identifying number) This
is the simplest case of a record in a system of
records and Joan Doe would have a right to
access.
2. A reference to Joan Doe in a record about
James Smith in the same file. This is also a
record within a system but Joan Doe would
not have to be granted access unless the
agency has devised and used an indexing
capability to gain access to her record in
James Smith’s file.
The D.C. Circuit apparently failed to understand
the example in the OMB Circular. In Carlborg’s case,
and many others reliant upon the D.C. Circuit’s
decision in Sussman, Carlborg was not seeking his
information from another’s record, which is example 2
under the OMB Circular. Rather, he was seeking a
first party disclosure of information concerning
himself contained in his own files identified in the
SORNs relating to his own performance and Judge
Advocate correspondence relating personally to him.
There was no information sought to be accessed or
obtained from any other person’s record, and none
was accessed from another’s record. Moreover, none
of the information was actually “retrieved by the
name” or identifier of other individuals, which is
necessary trigger the Privacy Act. Henke v. U.S. Dep’t
of Commerce, 83 F.3d at 1445, 1460 (D.C. Cir 1996)
(agency obtained documents on express promises of

8
confidentiality). All Carlborg sought were documents
contained in his own record, for which there no
express or implied promises of confidentiality and to
which he should have been granted full access.
The Eighth Circuit correctly interprets the Privacy
Act. Pursuant to the Privacy Act statute, where the
requested information is contained in a system of
records and retrieved by the requester’s name,
therefore is “about” the requester within the meaning
of subsection (a)(4)’s definition of “record” and such
information is subject to the subsection (d)(1) access
provision. Voelker v. IRS, 646 F.2d 332, 334 (8th Cir.
1981) provided that a requestor is entitled to full
access to his PA file, despite the fact that other
persons are collaterally named in the requester’s file.
The clear contrary of interpretation of a federal
statute; one that is routinely accessed by Americans,
clears a plain and obvious circuit split requires
review
to
assure
stability
and
consistent
interpretation of the access provisions of the Privacy
Act. This case provides an excellent vehicle to review
the circuit split because there were no express
requests for confidentiality contained in Carlborg’s
file. The case was decided on summary judgment and
summary affirmance as matters of law and the facts
are undisputed.

9
CONCLUSION
The Court should grant the Petition.
Respectfully submitted,
/s/ Charles W. Gittins
Charles W. Gittens
(D.C. Bar #439710)
139 Mallard Drive
Lake Frederick, VA 22630
540-327-2208
cgittins@aol.com
Counsel for Petitioner

APPENDIX

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE D ISTRICT OF C OLUMBIA

__________
No. 18-cv-1881 (DLF)

__________
R OBERT S. C ARLBORG ,

Plaintiff,

—v.—
D EPARTMENT

OF THE

N AVY ,
Defendant.

__________
MEMORANDUM OPINION
Robert S. Carlborg brings this action against the
Department of the Navy under the Freedom of
Information Act (FOIA), 5 U.S.C. § 552, et seq., and
the Privacy Act, 5 U.S.C. § 552a, et seq., challenging
the Navy’s response to requests Carlborg made under
both acts. Before the Court are Carlborg’s Motion for
Partial Summary Judgment, Dkt. 23, and the Navy’s
Cross-Motion for Summary Judgment, Dkt. 28. For
the reasons that follow, the Court will grant the
Navy’s motion and deny Carlborg’s motion.
I.

BACKGROUND

In 2015, after an investigation into alleged
misconduct, Robert Carlborg was involuntarily
discharged from the United States Marine Corps.

2a
Compl. ¶ 3, Dkt. 5. Following his separation from the
Marine Corps, Carlborg submitted various FOIA and
Privacy Act requests for records related to his time in
the Marine Corps and the investigation that
ultimately led to his involuntary discharge. Id.
Carlborg filed this lawsuit against the Navy over its
response to those requests on August 10, 2018. See
Dkt. 1.
Carlborg’s complaint alleges five counts. The first
pertains to a Privacy Act request submitted on
February 5, 2018 that sought “a copy of any and all
documents maintained on [Carlborg]” in the Marine
Corps Manpower Management Information System
Records, which retains pay and personnel records for
“active duty, reserve, and retired Marines.” Hughes
Decl. ¶¶ 5–8, Dkt. 28-4. The Navy searched this
system of records but found no responsive material
because the records of administratively separated
service members are only retained in this system for
“6 months beyond the date the separation was
processed.” Id. ¶ 8. The Navy then searched a related
system of records, the Optical Digital Imaging
Records Management System, and located Carlborg’s
“Official Military Personnel File,” which totaled 281
pages. Id. ¶ 9. The Navy processed this file under the
Privacy Act, withheld “personal identifying information pertaining to third parties,” and provided a
redacted version of the file to Carlborg on March 28,
2019. Id.
Carlborg’s second count relates to a FOIA request
submitted on August 9, 2017 that sought emails to or
from a Marine Corps officer that mentioned
“Carlborg” between March 1, 2015, and October 31,
2015, along with any responses to those emails. See
Compl. ¶ 10; McMillan Decl. ¶ 6, Dkt. 28-5. The Navy
collected the officer’s .pst file, McMillan Decl. ¶ 7,

3a
which stores “copies of messages, calendar events,
and other items within Microsoft software, such as
Microsoft Outlook,” Defs.’ Mem. in Supp. of Defs.’
Mot. for Summ. J. (“Defs.’ Mem.”) at 7 n.1, Dkt. 28-2.
The Navy searched the file as requested and found
244 pages of responsive email records. McMillan
Decl. ¶ 7. After reviewing these records, the Navy
withheld some information pursuant to FOIA
Exemptions 5 and 6 and produced the remainder of
the records to Carlborg on October 5, 2017. Id. ¶ 8.
After Carlborg had administratively appealed, the
Navy discovered “a series of email attachments that
were not previously released or properly exempted,”
produced those attachments to Carlborg, and
released some—but not all—of the material
previously withheld under the FOIA exemptions that
the Navy had previously invoked. Id. ¶ 8–11.
The third count concerns a Privacy Act request that
Carlborg made on July 25, 2017, which sought an
advisory opinion from the Staff Judge Advocate,
Military, Policy Personnel Branch, about Carlborg’s
separation. Compl. ¶ 28. The Navy initially processed
the advisory opinion under FOIA, “invoked
exemptions [6] and [7(C)] to protect third parties’
identities and information,” and produced a redacted
version of the opinion to Carlborg on August 4, 2017.
Hughes Decl. ¶ 12. After Carlborg administratively
appealed, the Navy reprocessed the advisory opinion
under the Privacy Act and produced the opinion to
Carlborg on July 20, 2018, withholding only a third
party’s signature at the end of the opinion. Id. ¶¶
14–15.
Carlborg’s fourth count is based on two Privacy Act
requests for records “maintained on” Carlborg. Compl.
¶¶ 40–42. The first request sought Carlborg’s records
from the HQMC Correspondence Control Files

4a
System, which maintains records relating to
“Marines or former Marines who have been the
subject of correspondence from a member of
Congress.” Id. ¶ 40. The second request sought
records from the Performance File, which contains
the records of those “who, while on active duty or in a
reserve status, become the subject of investigation,
indictment, or criminal proceedings by military or
civilian authorities.” Id. ¶ 42. In response to
Carlborg’s request, the Navy searched each system
twice using the keyword “Carlborg.” Hughes Decl. ¶¶
31, 36. In addition, all individuals “who might
reasonably have been expected to handle” Carlborg’s
case searched their own emails, .pst files, desktop,
and shared drives for any potentially responsive
records. Id. ¶¶ 18, 31. On January 12, 2018, the
Navy produced 161 pages of records in response to
Carlborg’s requests. Compl. ¶ 65. After a series of
administrative appeals, on July 20, 2018 the Navy
produced additional records that had been created
after the Navy’s previous search. Hughes Decl. ¶ 33.
Carlborg’s fifth count concerns two FOIA requests
for email records regarding the disciplinary action
that led to his separation from the Marine Corps.
Compl. ¶¶ 73–76. The first request was made on
February 21, 2016, and sought any email sent or
received by nine named Marines regarding Carlborg’s
disciplinary action from June 30, 2014 to October 9,
2015. Pl’s Ex. 20, Dkt. 23-2; McMillan Decl. ¶ 15.
Carlborg’s other request was submitted on April 12,
2016 and sought all emails sent or received by three
named Marine Corps officers regarding their
assignment to Carlborg’s Board of Inquiry or their
handling of Carlborg’s case from February 5, 2015 to
October 9, 2015. Pl’s Ex. 19, Dkt. 23-2. In response to
the first request, the Navy searched the emails of the

5a
requested individuals for the keyword “Carlborg” and
provided the responsive material onto a compact disc.
McMillan Decl. ¶ 15 & Ex. C. In response to Carlborg’s
second request, the Navy searched the emails of the
three specified individuals for the keywords “Carlborg”
and “Board of Inquiry.” McMillan Decl., Ex. D at 2.
Carlborg received the results from both requests on
August 4 and August 5, 2016. McMillan Decl. ¶ 16.
On January 13, 2020, Carlborg filed a motion for
partial summary judgment. Dkt. 23. On May 15,
2020, the Navy filed a cross-motion for summary
judgment on all counts. Dkt. 28.
II. LEGAL STANDARDS
Rule 56 of the Federal Rules of Civil Procedure
mandates that “[t]he court shall grant summary
judgment if the movant shows that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). “A dispute is ‘genuine’ if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Paige v. Drug Enf’t
Admin., 665 F.3d 1355, 1358 (D.C. Cir. 2012). A fact
is material if it “might affect the outcome of the suit
under the governing law.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986).
The Privacy Act mandates that “[e]ach agency that
maintains a system of records shall . . . upon request
by any individual to gain access to his record or to
any information pertaining to him which is contained
in the system, permit him . . . to review the record
and have a copy made of all or any portion thereof in
a form comprehensible to him.” 5 U.S.C. § 552a(d)(1).
The Privacy Act also allows individuals to request
notice that an agency’s system of records contains

6a
information about them. See 5 U.S.C. §§ 552a(e)(4)(G),
(f)(1). FOIA provides that “each agency, upon any
request for records which (i) reasonably describes such
records and (ii) is made in accordance with published
rules stating the time, place, fees (if any), and procedures to be followed, shall make the records promptly
available to any person.” 5 U.S.C. § 552(a)(3)(A).
The Privacy Act and FOIA are structurally similar.
Londrigan v. FBI, 670 F.2d 1164, 1169 (D.C. Cir.
1981). Both provide a requester with access to federal
agency records about the requester and create a private
cause of action when an agency fails to comply with a
valid request. See 5 U.S.C. §§ 552a(d)(1), (g)(1)
(Privacy Act); 5 U.S.C. §§ 552(a)(3)(A), (a)(4)(B)
(FOIA). Unlike FOIA, however, the Privacy Act “does
not have disclosure as its primary goal. Rather, the
main purpose of the Privacy Act’s disclosure requirement is to allow individuals on whom information is
being compiled and retrieved the opportunity to
review the information and request that the agency
correct any inaccuracies.” Henke v. U.S. Dep’t of
Commerce, 83 F.3d 1453, 1456–57 (D.C. Cir. 1996).
Under both the Privacy Act and FOIA, an agency
must conduct an adequate and reasonable search for
relevant records. See Chambers v. U.S. Dep’t of
Interior, 568 F.3d 998, 1003 (D.C. Cir. 2009) (stating
that “the Privacy Act, like FOIA, requires” that a
search “be reasonably calculated to uncover all
relevant documents” (internal quotation marks
omitted)). In this Circuit, courts apply the same
standard under both statutes to determine the
adequacy of a search. See id.; Hill v. U.S. Air Force,
795 F.2d 1067, 1069 (D.C. Cir. 1986) (per curiam)
(affirming search’s adequacy under Privacy Act for
the same reasons the search was affirmed under
FOIA). Thus, “[i]n a suit seeking agency documents—

7a
whether under the Privacy Act or the FOIA—at the
summary judgment stage, where the agency has the
burden to show that it acted in accordance with the
statute, the court may rely on a reasonably detailed
affidavit, setting forth the search terms and the type
of search performed, and averring that all files likely
to contain responsive materials (if such records exist)
were searched.” Chambers, 568 F.3d at 1003 (internal
alteration and quotation marks omitted). The agency’s
affidavit is “accorded a presumption of good faith,
which cannot be rebutted by purely speculative
claims about the existence and discoverability of
other documents.” SafeCard Servs., Inc. v. SEC, 926
F.2d 1197, 1200 (D.C. Cir. 1991) (internal quotation
marks omitted).
If agency searches reveal records responsive to a
Privacy Act or FOIA request, an agency may withhold
access to the records if the statutes exempt them
from disclosure. See 5 U.S.C. §§ 552a(j)(2), (k)(2),
552(b). Although the Privacy Act and FOIA
“substantially overlap,” the statutes “are not
completely coextensive; each provides or limits access
to material not opened or closed by the other.”
Greentree v. U.S. Customs Serv., 674 F.2d 74, 78
(D.C. Cir. 1982). The Privacy Act and FOIA “seek[] in
different ways to respond to the potential excesses of
government,” and “[e]ach, therefore, has its own
functions and limitations.” Id. at 76. Accordingly,
“[t]he two acts explicitly state that access to records
under each is available without regard to exemptions
under the other.” Id. This means that, when both
statutes are at play, an agency seeking to withhold
records must “demonstrate that the documents fall
within some exemption under each Act.” Martin v.
Office of Special Counsel, Merit Sys. Prot. Bd., 819
F.2d 1181, 1184 (D.C. Cir. 1987) (emphasis in

8a
original). “If a FOIA exemption covers the documents,
but a Privacy Act exemption does not, the documents
must be released under the Privacy Act; if a Privacy
Act exemption but not a FOIA exemption applies, the
documents must be released under FOIA.” Id.
III. ANALYSIS
A. Adequacy of the Searches
To secure summary judgment, the Navy “must
show that it made a good faith effort to conduct a
search for the requested records, using methods
which can be reasonably expected to produce the
information requested.” Reporters Comm. for
Freedom of Press v. FBI, 877 F.3d 399, 402 (D.C. Cir.
2017) (internal quotation marks omitted). “[T]he
issue to be resolved is not whether there might exist
any other documents possibly responsive to the
request, but rather whether the search for those
documents was adequate.” Weisberg v. U.S. Dep’t of
Justice, 745 F.2d 1476, 1485 (D.C. Cir. 1984)
(emphasis in original). “The adequacy of the search,
in turn, is judged by a standard of reasonableness
and depends, not surprisingly, upon the facts of each
case.” Id. The central question is whether the Navy’s
search was “reasonably calculated to discover the
requested documents, not whether it actually
uncovered every document extant.” SafeCard, 926
F.2d at 1201.
Carlborg challenges the adequacy of the Navy’s
search with respect to Counts IV and V.1
1

When Carlborg filed his complaint, the Navy had not yet
responded to his request in Count I, Defs.’ Mem. at 1; see also
Compl. ¶¶ 5–9, but did so on March 18, 2019 when it produced a
redacted version of Carlborg’s “Official Military Personnel File,”
see Hughes Decl. ¶¶ 8–9. Carlborg did not move for summary

9a
1. Count IV
Carlborg’s Privacy Act requests in Count IV sought
records “maintained on” Carlborg in two specified
systems of records: the HQMC Correspondence
Control Files and the Performance File. Compl. ¶¶
40–42. In responding to these requests, the Navy
twice searched each specified system for records that
included the term “Carlborg.” Hughes Decl. ¶¶ 31, 36.
The Navy also searched the “email accounts, .pst
folders, desktops and shared drive” of individual staff
members who “might reasonably” have been expected
to have been involved in Carlborg’s administrative
separation. Id. ¶ 18.
The Navy conducted an adequate search for the
records specified in these requests. Judged by a
“standard of reasonableness,” Mobley v. C.I.A., 924 F.
Supp. 2d 24, 36 (D.D.C. 2013) (quoting Weisberg, 745
F.2d at 1485), the Navy’s search for Carlborg’s name
in the systems Carlborg specified—and in other
locations likely to yield responsive material—
constituted “a good faith effort to conduct a search for
the requested records, using methods which can be
reasonably expected to produce the information
requested.” Reporters Comm. for Freedom of Press,
judgment with respect to this claim, see Pl.’s Mem. at 22, nor
does he appear to dispute the Navy’s argument that it conducted
an adequate search in response to Count I, see Defs.’ Reply
Mem. in Supp. of Defs.’ Mot. for Summ. J. (“Defs.’ Reply”) at 1,
Dkt. 32. Regardless, however, the record shows that the Navy
satisfied its burden to show it conducted a search “reasonably
calculated to uncover all relevant documents” responsive to
Carlborg’s request in Count I. SafeCard, 926 F.2d at 1201. Not
only did the Navy search the system Carlborg specified using his
social security number, see Hughes Decl. ¶ 6, 8, it also
“searched[ed] the Optical Digital Imaging Records Management
System,” id. ¶ 9.

10a
877 F.3d at 402. Carlborg points to “an unexplained
9-page gap in page numbering of emails that were
produced” in response to one of the requests as a
basis for finding the Navy’s search inadequate.2 Pl.’s
Reply Mem. in Supp. of Pl.’s Partial Mot. for Summ.
J. (“Pl.’s Reply”) at 5, Dkt. 31. The Navy speculated
that the gap was caused by an officer removing
duplicate emails before sending the Navy’s response
to Carlborg, see Hughes Decl. ¶ 35, but the Navy’s
inability to definitively explain the origin of this gap
does not render the methods it used unreasonable.
This is especially true given that the Navy conducted
another search after this gap was identified and
found “no records that ha[d] not already been
released to” Carlborg. Hughes Decl. ¶ 36.
Finally, the reasonableness of the Navy’s search is
buttressed by the fact that Carlborg has offered “no
suggestion as to where else” the Navy “might have
looked for his records or what other search criteria
should have been used.” Peavey v. Holder, 657 F.
Supp. 2d 180, 190 (D.D.C. 2009). Carlborg does point
to representations made by the Navy during the
processing of his requests indicating there were 1,750
pages of responsive records and argues that the Navy
has failed to adequately explain how only 161 pages
of material were ultimately produced. Pl.’s Mem. at
19. But, as detailed in the Navy’s affidavits, although
2

Carlborg suggests that the Navy’s response was not
clearly separated by each request. Pl.’s Mem. in Supp. of Pl.’s
Partial Mot. for Summ. J. (“Pl.’s Mem.”) at 18, Dkt. 23-1. To the
extent he also argues that the Navy’s response was not
reasonably segregated, see Defs.’ Mem. at 18–19, the Navy
satisfied its segregability obligations by describing the efforts it
made to segregate non-exempt portions of the responsive
records. See McMillan Decl. ¶ 12–14; see also Nat’l Sec.
Counselors v. CIA, 960 F. Supp. 2d 101, 207 (D.D.C. 2013).

11a
there were 1,750 pages of hard copy files identified as
responsive to Carlborg’s requests, most of those
records were duplicative or had already been
produced to Carlborg in response to earlier FOIA
requests. See Hughes Decl. ¶¶ 22–27. Carlborg also
suggests the Navy’s search cannot be adequate
because it “has never identified any files or personnel
produced from [the Office of Legislative Affairs].” Pl.’s
Reply at 5–6. But “speculation that as yet uncovered
documents may exist” is insufficient to rebut the
“presumption of good faith” afforded to the Navy after
searching for Carlborg’s records in the systems he
specified. SafeCard, 926 F.2d at 1200–01 (internal
quotation marks omitted). Consequently, the Court
finds the Navy has established its search was
“reasonably calculated to uncover all relevant
documents” responsive to Carlborg’s requests in
Count IV. See id. at 1201.
2. Count V
Carlborg’s two FOIA requests in Count V sought
emails relating to his administrative separation from
the Navy. The first request sought all emails “sent or
received” from June 30, 2014 to October 9, 2015 by
nine named Marine Corps officers regarding
Carlborg’s disciplinary case. Pl.’s Ex. 20. Carlborg’s
second request sought all emails sent or received by
three named Marine Corps officers from February 5,
2015 to October 9, 2015 regarding their assignment
to Carlborg’s Board of Inquiry or their handling of
Carlborg’s case. Pl’s Ex. 19. In response, the Navy
searched the emails of all individuals named in either
request for the keyword “Carlborg.” The Navy also
searched the emails of the three individuals named in
Carlborg’s second request for the keyword “Board of
Inquiry.” McMillan Decl. ¶ 15 & Ex. D at 2. By
searching the emails Carlborg specified by his name,

12a
the Navy satisfied its burden to show it conducted a
search that was reasonably calculated to produce the
emails Carlborg sought about the handling of his
disciplinary case.
Carlborg attempts to satisfy his burden to “provide
countervailing evidence as to the adequacy of the
[Navy]’s search,” Iturralde v. Comptroller of
Currency, 315 F.3d 311, 314 (D.C. Cir. 2003) (internal
quotation marks omitted), by pointing to certain
emails he expected the Navy to produce, including
three emails in Carlborg’s possession that he claims
were responsive to his request. See Pl.’s Mem. at 20–
21. But after Carlborg brought these emails to the
Navy’s attention, the Navy conducted a review of the
relevant .pst files and found nine pages of responsive
records that had not previously been produced,
including one of the emails Carlborg referenced. See
Pl.’s Mem. at 11; McMillan Decl. ¶ 19. The Navy then
conducted another search as part of a “completely
renewed” response to his request, but ultimately
found “no additional responsive emails.” Id. ¶¶ 20–
21. In assessing the adequacy of a search, “[t]he issue
is not whether any further documents might
conceivably exist but rather whether the [Navy]’s
search for responsive documents was adequate[,]”
Defs. of Wildlife v. U.S. Dep’t of Interior, 314 F. Supp.
2d 1, 8 (D.D.C. 2004), and “the adequacy of a search
is determined not by the fruits of the search, but by
the appropriateness of its methods,” Hodge v. F.B.I.,
703 F.3d 575, 579 (D.C. Cir. 2013) (alterations and
internal quotation marks omitted); see also Wilbur v.
C.I.A., 355 F.3d 675, 678 (D.C. Cir. 2004) (“[T]he
agency’s failure to turn up a particular document, or
mere speculation that as yet uncovered documents
might exist, does not undermine the determination
that the agency conducted an adequate search for the

13a
requested records.”). The Navy’s failure to produce
particular emails does not suggest the inadequacy of
its search. See Barouch v. U.S. Dep’t of Justice, 87 F.
Supp. 3d 10, 24 (D.D.C. 2015) (“Defendants’ failure to
find and release these particular records to plaintiff is
not, therefore, evidence of agency bad faith.”).
Carlborg also speculates that, because the compact
disc of files the Navy used to process Carlborg’s
request was a copy of the potentially responsive
material the Navy initially identified, someone could
have “manipulated, redacted and eliminate[d] files or
documents unfavorable” to the Navy before the
material was processed under FOIA. Pl.’s Reply at 7–
8; see also Pl.’s Mem. at 10–11. But the record
contains no evidence to support these claims, and the
Navy is afforded “a presumption of good faith, which
cannot be rebutted by purely speculative claims.”
SafeCard, 926 F.2d at 1200 (internal quotation marks
omitted); see also Pl.’s Ex. 20; McMillan Decl. ¶ 22
(attesting the file was not modified or manipulated).
For these same reasons, Carlborg’s request for an
in camera review of the original compact disc, see Pl.’s
Reply at 10, is denied. See Am. Civil Liberties Union
v. U.S. Dep’t of Defense, 628 F.3d 612, 627 (D.C. Cir.
2011) (finding in camera review was “not necessary”
where the agency’s affidavit was “sufficiently
detailed” and there was “no evidence of bad faith”);
Larson v. Dep’t of State, 565 F.3d 857, 870 (D.C. Cir.
2009) (“If the agency’s affidavits provide specific
information sufficient to place the documents within
the exemption category, if this information is not
contradicted in the record, and if there is no evidence
in the record of agency bad faith, then summary
judgment is appropriate without in camera review of
the documents.”) (internal quotation marks omitted).
In sum, the Navy’s search was “reasonably calculated

14a
to uncover all relevant documents” responsive to
Carlborg’s requests in Count V. SafeCard, 926 F.2d
at 1201.
B. Privacy Act
1. Applicability of Privacy Act to Count IV
As part of the Navy’s response to Carlborg’s
Privacy Act requests in Count IV, the Navy searched
individual staff members’.pst files. See McMillan
Decl. ¶ 7; Defs.’ Reply at 5. It then processed
responsive emails produced from this search under
FOIA and withheld material under FOIA Exemptions
5, 6, and 7(C). Hughes Decl. ¶¶ 18, 31, 34; Defs.’
Mem. at 16 n.3. Carlborg challenges these
withholdings on the ground that the responsive
emails were actually retrieved from a system of
records, and consequently, should have been
processed under the Privacy Act rather than FOIA,
but he does not otherwise contest the Navy’s reliance
on Exemptions 5, 6, and 7(C). See Pl.’s Reply 15–16.
“Determining that a system of records exists from
which the record at issue was retrieved is a
prerequisite to a substantive Privacy Act claim.”
Mulhern v. Gates, 525 F. Supp. 2d 174, 181 n.10
(D.D.C. 2007). A “system of records” is defined by the
Privacy Act as “a group of any records under the
control of any agency from which information is
retrieved by the name of the individual or by some
identifying number, symbol, or other identifying
particular assigned to the individual.” 5 U.S.C. §
552a(a)(5). For information to fall within that
definition: “(1) the “information must be ‘about’ an
individual, and (2) it must actually be retrieved by
the name or identifier of an individual.” Kearns v.
Fed. Aviation Admin., 312 F. Supp. 3d 97, 108
(D.D.C. 2018) (internal citations and quotation

15a
marks omitted). “The Circuit has held . . . that
records containing an individual’s name are not
necessarily about that individual, and that the
capability to retrieve records based on individual
identifiers is not tantamount to actually retrieving
them based on such markers.” Id. (internal citations
omitted) (emphasis in original). Instead, “in
determining whether an agency maintains a system
of records keyed to individuals, the court should view
the entirety of the situation, including the agency’s
function, the purpose for which the information was
gathered, and the agency’s actual retrieval practice
and policies.” Henke, 83 F.3d at 1461. Importantly,
the Privacy Act does “not apply to every document
created by an agency employee but only to those
records considered sufficiently important to the
agency’s operations or mission to become part of the
agency’s system of records.” York v. McHugh, 850 F.
Supp. 2d 305, 314 (D.D.C. 2012).
The emails the Navy collected in response to
Carlborg’s requests were not retrieved from a system
of records as defined by the Privacy Act because the
email messages and calendar entries stored on the
.pst files that the Navy searched are not “sufficiently
important to the agency’s operations or mission to
become part of the agency’s system of records.” Id.
Although Carlborg stresses that the Navy was able to
search these files for Carlborg’s name, Pl.’s Reply at
15–16, “capability to retrieve records based on
individual identifiers is not tantamount to actually
retrieving them based on such markers.” Kearns, 312
F. Supp. 3d at 108 (emphasis in original). And
Carlborg has not shown that the Navy regularly
retrieves information from .pst files using names or
personal identifiers, or that it created these files in
order to do so. See York, 850 F. Supp. 2d at 311–15

16a
(“The fact that some documents were labeled with
[plaintiff’s] name does not convert the shared J drive
into a system of records, particularly where there is
no evidence that the agency used the shared drive to
retrieve information by personal identifiers and the
drive was not created for employees to do so.”). The
Privacy Act therefore does not apply to the requests
referenced by Carlborg in Count IV and the searches
that the Navy conducted in response to those
requests.
2. Privacy Act Withholdings
When the Navy processed Carlborg’s records under
the Privacy Act, it withheld “personal identifying
information pertaining to third parties” such as
“names, signatures and social security numbers.”
Hughes Decl. ¶¶ 9, 15. Carlborg claims there is no
basis for withholding that information under the
Privacy Act. Pl.’s Reply at 11.
Although the Privacy Act requires the Navy to
provide Carlborg with “his record”, 5 U.S.C. §
552a(d)(1), it also provides that, unless authorized by
the Act, “no agency shall disclose any record which is
contained in a system of records by any means of
communication to any person, or to another agency,
except pursuant to a written request by, or with the
prior consent of, the individual to whom the record
pertains.” 5 U.S.C. § 552a(b). Carlborg argues that
because these records are “about” him, they cannot
“pertain” to someone else, and thus the Privacy Act’s
prohibition on disclosure without written consent
does not apply. Pl.’s Reply at 11–13. In support of this
argument, Carlborg cites to one case, Topuridze v.
U.S. Info. Agency, 772 F. Supp. 662 (D.D.C. 1991),
which held that individuals are entitled to records
under the Privacy Act that are “about” them, even if

17a
information in that record also pertains to another
individual. But Topuridze is no longer good law. In
this Circuit, “when materials pertain to both a
Privacy Act requester and other individuals from
whom the agency has received no written consent
permitting disclosure, the Privacy Act’s prohibition
on disclosing information without written consent
‘must take precedence,’ and the portions of the record
pertaining to those third parties must be withheld.”
Mobley, 924 F. Supp. 2d at 57 (quoting Sussman v.
U.S. Marshals Serv., 494 F.3d 1106, 1121 n.9 (D.C.
Cir. 2007)). The Court thus concludes that the Navy
properly withheld personal identifying information
pertaining to third parties who had not provided their
consent to disclose that information pursuant to 5
U.S.C. § 552a(b).
As a final argument, Carlborg invokes a separate
statute, 10 U.S.C. § 1556(a), to support his claim that
he was entitled to an unredacted copy of the advisory
opinion that the Navy produced in response to the
Privacy Act request in Count III. Pl.’s Reply at 3–4.
This too fails because § 1556(a) applies to the release
of information in connection with proceedings involving
the correction of military records. See 10 U.S.C. §
1556(a). And Carlborg has provided no authority that
suggests that this provision may be enforced as part
of an action brought under FOIA or the Privacy Act,
or that this Court has jurisdiction to consider a claim
seeking to enforce 10 U.S.C. § 1556(a).
C. FOIA Withholdings
Finally, the Navy argues it properly invoked FOIA
Exemptions 5 and 6 to withhold certain material in
its response to Carlborg’s FOIA requests in Count II.
Defs.’ Mem. at 11–14. Carlborg failed to respond to
this argument. As a result, the Court may treat it as

18a
conceded. See Sykes v. Dudas, 573 F. Supp. 2d 191,
202 (D.D.C. 2008) (“In this district, when a party
responds to some but not all arguments raised on a
Motion for Summary Judgment, a court may fairly
view the unacknowledged arguments as conceded.”).
Nevertheless, the Court finds the Navy’s withholdings in response to Carlborg’s FOIA requests in
Count II were justified under FOIA.
The Navy invoked the deliberative process
privilege under FOIA Exemption 5 to withhold emails
from a Special Agent to legal counsel “concerning the
status of an ongoing investigation of an alleged
sexual assault not involving the Plaintiff that
identified both the alleged victim and the alleged
suspect.” Dowling Decl. ¶ 5, Dkt. 28-6. Exemption 5
protects “inter-agency or intra-agency memorandums
or letters that would not be available by law to a
party other than an agency in litigation with the
agency.” 5 U.S.C. § 552(b)(5). This includes all
documents that would normally be privileged in the
civil discovery context. See NLRB v. Sears, Roebuck
& Co., 421 U.S. 132, 149 (1975). The deliberative
process privilege allows agencies to withhold “documents reflecting advisory opinions, recommendations
and deliberations comprising part of a process by
which governmental decisions and policies are
formulated.” Petroleum Info. Corp. v. Dep’t of Interior,
976 F.2d 1429, 1433 (D.C. Cir. 1992) (internal
quotation and citation omitted). To invoke the
deliberative process privilege, an agency must show
that the information withheld is both “predecisional”
and “deliberative.” Id. at 1434. Predecisional
material is “prepared in order to assist an agency
decisionmaker in arriving at his decision, rather than
to support a decision already made.” Id. (internal
quotation marks omitted). Deliberative material

19a
“reflects the give-and-take of the consultative
process.” Id. (internal quotation marks omitted).
Here, the emails withheld under Exemption 5 were
predecisional because they relayed “the opinions,
recommendations, and assessments of the special
agent about the investigation in anticipation of a
court-martial or additional administrative action.”
Dowling Decl. ¶ 5. And they are deliberative because
they “reflect the internal give and take among Navy
personnel about that investigation.” Defs.’ Mem. at
14; see also Citizens for Responsibility & Ethics in
Washington v. DOJ, 746 F.3d 1082, 1098 (D.C. Cir.
2014) (noting that courts “give deference to an
agency’s predictive judgment of the harm that will
result from disclosure of information”). Because these
emails were both “predecisional” and “deliberative,”
the Navy properly invoked FOIA Exemption 5 to
withhold them. See Petroleum Info. Corp., 976 F.2d
at 1434.
FOIA Exemption 6 employs a balancing test and
allows agencies to withhold certain information when
disclosing it would result in a “clearly unwarranted
invasion of personal privacy.” 5 U.S.C. § 552(b)(6). If
disclosure would implicate only a de minimis privacy
interest, the information must be disclosed; if the
privacy interest at stake is greater than de minimis,
the court must balance that privacy interest against
the public interest in disclosure. See Judicial Watch,
Inc. v. Food & Drug Admin., 449 F.3d 141, 153 (D.C.
Cir. 2006).
The Navy properly invoked FOIA Exemption 6 to
redact the “personal and identifying information” of
“DoD and non-DoD personnel” who were not general
officers or in director-level positions. Dowling Decl. ¶ 4;
McMillan Decl. ¶ 7. These individuals have more

20a
than a de minimis privacy interest in keeping their
names and personal identifying information from
being disclosed. And the general public’s interest in
disclosing the personal and identifying information of
these individuals is minimal. See, e.g., Davidson v.
Dep’t of State, 206 F. Supp. 3d 178, 200 (D.D.C. 2016)
(finding there was “no public interest” in knowing
“the names and contact information” of State
Department employees because it would reveal “little
or nothing more about the Department’s conduct”);
Kearns, 312 F. Supp. 3d at 112 (finding the public
interest in disclosing “the names, other identifying
information, and personal data” of third parties
“involved in the FAA’s internal investigations” was
“nil” because the information would not “shed light on
the FAA’s performance of its statutory duties”).
Accordingly, the Navy properly invoked FOIA
Exemption 6 to withhold this information.
CONCLUSION
For the foregoing reasons, the Court grants the
Navy’s cross-motion for summary judgment and
denies Carlborg’s partial motion for summary
judgment. A separate order consistent with this
decision accompanies this memorandum opinion.
/s/ Dabney L. Friedrich
DABNEY L. FRIEDRICH
United States District Judge
August 10, 2020

21a
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE D ISTRICT OF C OLUMBIA

__________
No. 20-5311

__________
September Term, 2020
1:18-cv-01881-DLF

__________
Filed On: May 11, 2021

__________
R OBERT S. C ARLBORG ,
—v.—
U NITED S TATES D EPARTMENT

OF THE

Appellant
N AVY ,
Appellee

__________
BEFORE: Rogers, Wilkins, and Rao, Circuit Judges
ORDER
Upon consideration of the petition for rehearing
and remand, it is
ORDERED that the petition be denied.

22a
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

23a
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE D ISTRICT OF C OLUMBIA

__________
No. 20-5311

__________
September Term, 2020
1:18-cv-01881-DLF

__________
Filed On: March 8, 2021

__________
R OBERT S. C ARLBORG ,
—v.—
U NITED S TATES D EPARTMENT

OF THE

Appellant
N AVY ,
Appellee

__________
BEFORE: Rogers, Wilkins, and Rao, Circuit Judges
ORDER
Upon consideration of the motion for summary
affirmance, the opposition thereto, and the reply, it is
ORDERED that the motion for summary
affirmance be granted. The merits of the parties’

24a
positions are so clear as to warrant summary action.
See Taxpayers Watchdog, Inc. v. Stanley, 819 F.2d
294, 297 (D.C. Cir. 1987) (per curiam).
The district court’s August 10, 2020 decision
correctly concluded that appellee conducted an
adequate search in response to the Freedom of
Information Act (“FOIA”) requests at issue in Count
V of the complaint. See Mobley v. CIA, 806 F.3d 568,
580-81 (D.C. Cir. 2015). Appellee submitted a
“reasonably detailed” declaration “setting forth the
search terms and the type of search performed” that
showed “that all files likely to contain responsive
materials (if such records exist) were searched,” id.
at 581, and appellant’s “countervailing evidence”
failed to raise a “substantial doubt” as to the
adequacy of that search, Iturralde v. Comptroller of
Currency, 315 F.3d 311, 314 (D.C. Cir. 2003). The
presumption of good faith accorded to an agency’s
declaration cannot be overcome by “purely
speculative claims about the existence and
discoverability of other documents.” SafeCard Servs.,
Inc. v. SEC, 926 F.2d 1197, 1200 (D.C. Cir. 1991)
(internal quotation marks omitted); see also Wilbur v.
CIA, 355 F.3d 675, 678 (D.C. Cir. 2004).
With respect to the records released to appellant
under the Privacy Act, 5 U.S.C. § 552a, the district
court correctly concluded that appellee properly
withheld information pertaining to third parties who
had not provided their consent to disclosure of that
information. See 5 U.S.C. § 552a(b); Sussman v. U.S.
Marshals Serv., 494 F.3d 1106, 1121 & n.9 (D.C. Cir.
2007).
Finally, appellant challenges appellee’s application
of FOIA Exemption 6 to withhold certain materials
responsive to the requests at issue in Counts II and

25a
IV of his complaint. Appellant, however, failed to
raise that argument in the district court and has not
shown that exceptional circumstances justify its
consideration for the first time on appeal. See Salazar
ex rel. Salazar v. D.C., 602 F.3d 431, 436-37 (D.C.
Cir. 2010). Appellant has also forfeited any challenge
to the remaining aspects of the district court’s
decision. See U.S. ex rel. Totten v. Bombardier Corp.,
380 F.3d 488, 497 (D.C. Cir. 2004).
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to
withhold issuance of the mandate herein until seven
days after resolution of any timely petition for
rehearing or petition for rehearing en banc. See Fed.
R. App. P. 41(b); D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Manuel J. Castro
Deputy Clerk

26a
Appendix D
5 U.S. Code § 552a –
Records Maintained on Individuals
(a) DEFINITIONS.—For purposes of this section—
(1) the term “agency” means agency as defined in
section 552(e) of this title;
(2) the term “individual” means a citizen of the
United States or an alien lawfully admitted for
permanent residence;
(3) the term “maintain” includes maintain, collect,
use, or disseminate;
(4) the term “record” means any item, collection, or
grouping of information about an individual that is
maintained by an agency, including, but not
limited to, his education, financial transactions,
medical history, and criminal or employment
history and that contains his name, or the
identifying number, symbol, or other identifying
particular assigned to the individual, such as a
finger or voice print or a photograph;
(5) the term “system of records” means a group of
any records under the control of any agency from
which information is retrieved by the name of the
individual or by some identifying number, symbol,
or other identifying particular assigned to the
individual;
(6) the term “statistical record” means a record in
a system of records maintained for statistical
research or reporting purposes only and not used in
whole or in part in making any determination
about an identifiable individual, except as provided
by section 8 of title 13;

27a
(7) the term “routine use” means, with respect to
the disclosure of a record, the use of such record for
a purpose which is compatible with the purpose for
which it was collected;
(8) the term “matching program”—
(A) means any computerized comparison of—
(i) two or more automated systems of records
or a system of records with non-Federal
records for the purpose of—
(I) establishing or verifying the eligibility of,
or continuing compliance with statutory and
regulatory requirements by, applicants for,
recipients or beneficiaries of, participants in,
or providers of services with respect to, cash
or in-kind assistance or payments under
Federal benefit programs, or
(II) recouping payments or delinquent debts
under such Federal benefit programs, or
(ii) two or more automated Federal personnel
or payroll systems of records or a system of
Federal personnel or payroll records with nonFederal records,
(B) but does not include—
(i) matches performed to produce aggregate
statistical
data
without
any
personal
identifiers;
(ii) matches performed to support any
research or statistical project, the specific data
of which may not be used to make decisions
concerning the rights, benefits, or privileges of
specific individuals;

28a
(iii) matches performed, by an agency (or
component thereof) which performs as its
principal function any activity pertaining to
the enforcement of criminal laws, subsequent
to the initiation of a specific criminal or civil
law enforcement investigation of a named
person or persons for the purpose of gathering
evidence against such person or persons;
(iv) matches of tax information (I) pursuant
to section 6103(d) of the Internal Revenue
Code of 1986, (II) for purposes of tax administration as defined in section 6103(b)(4) of
such Code, (III) for the purpose of intercepting
a tax refund due an individual under authority
granted by section 404(e), 464, or 1137 of the
Social Security Act; or (IV) for the purpose of
intercepting a tax refund due an individual
under any other tax refund intercept program
authorized by statute which has been
determined by the Director of the Office of
Management
and
Budget
to
contain
verification, notice, and hearing requirements
that are substantially similar to the procedures
in section 1137 of the Social Security Act;
(v) matches—
(I) using records predominantly relating to
Federal personnel, that are performed for
routine administrative purposes (subject to
guidance provided by the Director of the
Office of Management and Budget pursuant
to subsection (v)); or
(II) conducted by an agency using only
records from systems of records maintained
by that agency;

29a
if the purpose of the match is not to take
any
adverse
financial,
personnel,
disciplinary, or other adverse action against
Federal personnel;
(vi) matches performed for foreign counterintelligence purposes or to produce background
checks for security clearances of Federal
personnel or Federal contractor personnel;
(vii) matches performed incident to a levy
described in section 6103(k)(8) of the Internal
Revenue Code of 1986;
(viii) matches performed pursuant to section
202(x)(3) or 1611(e)(1) of the Social Security
Act (42 U.S.C. 402(x)(3), 1382(e)(1));
(ix) matches performed by the Secretary of
Health and Human Services or the Inspector
General of the Department of Health and
Human Services with respect to potential
fraud, waste, and abuse, including matches of
a system of records with non-Federal records;
or
(x) matches performed pursuant to section
3(d)(4) of the Achieving a Better Life
Experience Act of 2014;
(9) the term “recipient agency” means any
agency, or contractor thereof, receiving records
contained in a system of records from a source
agency for use in a matching program;
(10) the term “non-Federal agency” means any
State or local government, or agency thereof,
which receives records contained in a system of
records from a source agency for use in a
matching program;

30a
(11) the term “source agency” means any agency
which discloses records contained in a system of
records to be used in a matching program, or any
State or local government, or agency thereof,
which discloses records to be used in a matching
program;
(12) the term “Federal benefit program” means
any program administered or funded by the
Federal Government, or by any agent or State on
behalf of the Federal Government, providing cash
or in-kind assistance in the form of payments,
grants, loans, or loan guarantees to individuals;
and
(13) the term “Federal personnel” means officers
and employees of the Government of the United
States, members of the uniformed services
(including members of the Reserve Components),
individuals entitled to receive immediate or
deferred retirement benefits under any retirement program of the Government of the United
States (including survivor benefits).
(b) CONDITIONS OF DISCLOSURE.—No agency shall
disclose any record which is contained in a system of
records by any means of communication to any
person, or to another agency, except pursuant to a
written request by, or with the prior written consent
of, the individual to whom the record pertains, unless
disclosure of the record would be—
(1) to those officers and employees of the agency
which maintains the record who have a need for
the record in the performance of their duties;
(2) required under section 552 of this title;

31a
(3) for a routine use as defined in subsection (a)(7)
of this section and described under subsection
(e)(4)(D) of this section;
(4) to the Bureau of the Census for purposes of
planning or carrying out a census or survey or
related activity pursuant to the provisions of title
13;
(5) to a recipient who has provided the agency with
advance adequate written assurance that the
record will be used solely as a statistical research
or reporting record, and the record is to be
transferred in a form that is not individually
identifiable;
(6) to the National Archives and Records
Administration as a record which has sufficient
historical or other value to warrant its continued
preservation by the United States Government, or
for evaluation by the Archivist of the United States
or the designee of the Archivist to determine
whether the record has such value;
(7) to another agency or to an instrumentality of
any governmental jurisdiction within or under the
control of the United States for a civil or criminal
law enforcement activity if the activity is
authorized by law, and if the head of the agency or
instrumentality has made a written request to the
agency which maintains the record specifying the
particular portion desired and the law enforcement
activity for which the record is sought;
(8) to a person pursuant to a showing of
compelling circumstances affecting the health or
safety of an individual if upon such disclosure
notification is transmitted to the last known
address of such individual;

32a
(9) to either House of Congress, or, to the extent of
matter within its jurisdiction, any committee or
subcommittee thereof, any joint committee of
Congress or subcommittee of any such joint
committee;
(10) to the Comptroller General, or any of his
authorized representatives, in the course of the
performance of the duties of the Government
Accountability Office;
(11) pursuant to the order of a court of competent
jurisdiction; or
(12) to a consumer reporting agency in accordance
with section 3711(e) of title 31.
(c) ACCOUNTING OF CERTAIN DISCLOSURES.—Each
agency, with respect to each system of records under
its control, shall—
(1) except for disclosures made under subsections
(b)(1) or (b)(2) of this section, keep an accurate
accounting of—
(A) the date, nature, and purpose of each
disclosure of a record to any person or to another
agency made under subsection (b) of this section;
and
(B) the name and address of the person or
agency to whom the disclosure is made;
(2) retain the accounting made under paragraph
(1) of this subsection for at least five years or the
life of the record, whichever is longer, after the
disclosure for which the accounting is made;
(3) except for disclosures made under subsection
(b)(7) of this section, make the accounting made
under paragraph (1) of this subsection available to

33a
the individual named in the record at his request;
and
(4) inform any person or other agency about any
correction or notation of dispute made by the
agency in accordance with subsection (d) of this
section of any record that has been disclosed to the
person or agency if an accounting of the disclosure
was made.
(d) ACCESS TO RECORDS.—Each
maintains a system of records shall—

agency

that

(1) upon request by any individual to gain access
to his record or to any information pertaining to
him which is contained in the system, permit him
and upon his request, a person of his own choosing
to accompany him, to review the record and have a
copy made of all or any portion thereof in a form
comprehensible to him, except that the agency may
require the individual to furnish a written statement authorizing discussion of that individual’s
record in the accompanying person’s presence;
(2) permit the individual to request amendment of
a record pertaining to him and—
(A) not later than 10 days (excluding Saturdays,
Sundays, and legal public holidays) after the date
of receipt of such request, acknowledge in writing
such receipt; and
(B) promptly, either—
(i) make any correction of any portion thereof
which the individual believes is not accurate,
relevant, timely, or complete; or
(ii) inform the individual of its refusal to
amend the record in accordance with his
request, the reason for the refusal, the

34a
procedures established by the agency for the
individual to request a review of that refusal
by the head of the agency or an officer
designated by the head of the agency, and the
name and business address of that official;
(3) permit the individual who disagrees with the
refusal of the agency to amend his record to request
a review of such refusal, and not later than 30 days
(excluding Saturdays, Sundays, and legal public
holidays) from the date on which the individual
requests such review, complete such review and
make a final determination unless, for good cause
shown, the head of the agency extends such 30-day
period; and if, after his review, the reviewing
official also refuses to amend the record in
accordance with the request, permit the individual
to file with the agency a concise statement setting
forth the reasons for his disagreement with the
refusal of the agency, and notify the individual of
the provisions for judicial review of the reviewing
official’s determination under subsection (g)(1)(A)
of this section;
(4) in any disclosure, containing information about
which the individual has filed a statement of
disagreement, occurring after the filing of the
statement under paragraph (3) of this subsection,
clearly note any portion of the record which is
disputed and provide copies of the statement and, if
the agency deems it appropriate, copies of a concise
statement of the reasons of the agency for not
making the amendments requested, to persons or
other agencies to whom the disputed record has
been disclosed; and

35a
(5) nothing in this section shall allow an individual
access to any information compiled in reasonable
anticipation of a civil action or proceeding.
(e) AGENCY REQUIREMENTS.—Each
maintains a system of records shall—

agency

that

(1) maintain in its records only such information
about an individual as is relevant and necessary to
accomplish a purpose of the agency required to be
accomplished by statute or by executive order of
the President;
(2) collect information to the greatest extent
practicable directly from the subject individual
when the information may result in adverse
determinations about an individual’s rights,
benefits, and privileges under Federal programs;
(3) inform each individual whom it asks to supply
information, on the form which it uses to collect the
information or on a separate form that can be
retained by the individual—
(A) the authority (whether granted by statute, or
by executive order of the President) which
authorizes the solicitation of the information and
whether disclosure of such information is
mandatory or voluntary;
(B) the principal purpose or purposes for which
the information is intended to be used;
(C) the routine uses which may be made of the
information, as published pursuant to paragraph
(4)(D) of this subsection; and
(D) the effects on him, if any, of not providing all
or any part of the requested information;
(4) subject to the provisions of paragraph (11) of
this subsection, publish in the Federal Register

36a
upon establishment or revision a notice of the
existence and character of the system of records,
which notice shall include—
(A) the name and location of the system;
(B) the categories of individuals on whom
records are maintained in the system;
(C) the categories of records maintained in the
system;
(D) each routine use of the records contained in
the system, including the categories of users and
the purpose of such use;
(E) the policies and practices of the agency
regarding storage, retrievability, access controls,
retention, and disposal of the records;
(F) the title and business address of the agency
official who is responsible for the system of
records;
(G) the
agency
procedures
whereby
an
individual can be notified at his request if the
system of records contains a record pertaining to
him;
(H) the
agency
procedures
whereby
an
individual can be notified at his request how he
can gain access to any record pertaining to him
contained in the system of records, and how he
can contest its content; and
(I) the categories of sources of records in the
system;
(5) maintain all records which are used by the
agency in making any determination about any
individual with such accuracy, relevance, timeliness, and completeness as is reasonably necessary

37a
to assure fairness to the individual in the
determination;
(6) prior to disseminating any record about an
individual to any person other than an agency,
unless the dissemination is made pursuant to
subsection (b)(2) of this section, make reasonable
efforts to assure that such records are accurate,
complete, timely, and relevant for agency purposes;
(7) maintain no record describing how any
individual exercises rights guaranteed by the First
Amendment unless expressly authorized by statute
or by the individual about whom the record is
maintained or unless pertinent to and within the
scope of an authorized law enforcement activity;
(8) make reasonable efforts to serve notice on an
individual when any record on such individual is
made available to any person under compulsory
legal process when such process becomes a matter
of public record;
(9) establish rules of conduct for persons involved
in the design, development, operation, or
maintenance of any system of records, or in
maintaining any record, and instruct each such
person with respect to such rules and the
requirements of this section, including any other
rules and procedures adopted pursuant to this
section and the penalties for noncompliance;
(10) establish
appropriate
administrative,
technical, and physical safeguards to insure the
security and confidentiality of records and to
protect against any anticipated threats or hazards
to their security or integrity which could result in
substantial harm, embarrassment, inconvenience,

38a
or unfairness to any individual
information is maintained;

on

whom

(11) at least 30 days prior to publication of
information under paragraph (4)(D) of this
subsection, publish in the Federal Register notice
of any new use or intended use of the information
in the system, and provide an opportunity for
interested persons to submit written data, views, or
arguments to the agency; and
(12) if such agency is a recipient agency or a
source agency in a matching program with a nonFederal agency, with respect to any establishment
or revision of a matching program, at least 30 days
prior to conducting such program, publish in the
Federal Register notice of such establishment or
revision.
(f) AGENCY RULES.—In order to carry out the
provisions of this section, each agency that maintains
a system of records shall promulgate rules, in
accordance with the requirements (including general
notice) of section 553 of this title, which shall—
(1) establish procedures whereby an individual can
be notified in response to his request if any system
of records named by the individual contains a
record pertaining to him;
(2) define reasonable times, places, and requirements for identifying an individual who requests
his record or information pertaining to him before
the agency shall make the record or information
available to the individual;
(3) establish procedures for the disclosure to an
individual upon his request of his record or
information pertaining to him, including special
procedure, if deemed necessary, for the disclosure

39a
to an individual of medical records, including
psychological records, pertaining to him;
(4) establish procedures for reviewing a request
from an individual concerning the amendment of
any record or information pertaining to the
individual, for making a determination on the
request, for an appeal within the agency of an
initial adverse agency determination, and for
whatever additional means may be necessary for
each individual to be able to exercise fully his
rights under this section; and
(5) establish fees to be charged, if any, to any
individual for making copies of his record,
excluding the cost of any search for and review of
the record.
The Office of the Federal Register shall biennially
compile and publish the rules promulgated under
this subsection and agency notices published under
subsection (e)(4) of this section in a form available
to the public at low cost.
(g)
(1) CIVIL REMEDIES.—Whenever any agency
(A) makes a determination under subsection
(d)(3) of this section not to amend an individual’s
record in accordance with his request, or fails to
make such review in conformity with that
subsection;
(B) refuses to comply with an individual request
under subsection (d)(1) of this section;
(C) fails to maintain any record concerning any
individual with such accuracy, relevance,
timeliness, and completeness as is necessary to
assure fairness in any determination relating to

40a
the
qualifications,
character,
rights,
or
opportunities of, or benefits to the individual that
may be made on the basis of such record, and
consequently a determination is made which is
adverse to the individual; or
(D) fails to comply with any other provision of
this section, or any rule promulgated thereunder,
in such a way as to have an adverse effect on an
individual,
the individual may bring a civil action against
the agency, and the district courts of the United
States shall have jurisdiction in the matters
under the provisions of this subsection.
(2)
(A) In any suit brought under the provisions of
subsection (g)(1)(A) of this section, the court may
order the agency to amend the individual’s record
in accordance with his request or in such other
way as the court may direct. In such a case the
court shall determine the matter de novo.
(B) The court may assess against the United
States reasonable attorney fees and other
litigation costs reasonably incurred in any case
under this paragraph in which the complainant
has substantially prevailed.
(3)
(A) In any suit brought under the provisions of
subsection (g)(1)(B) of this section, the court may
enjoin the agency from withholding the records
and order the production to the complainant of
any agency records improperly withheld from
him. In such a case the court shall determine the
matter de novo, and may examine the contents of

41a
any agency records in camera to determine
whether the records or any portion thereof may
be withheld under any of the exemptions set
forth in subsection (k) of this section, and the
burden is on the agency to sustain its action.
(B) The court may assess against the United
States reasonable attorney fees and other
litigation costs reasonably incurred in any case
under this paragraph in which the complainant
has substantially prevailed.
(4) In any suit brought under the provisions of
subsection (g)(1)(C) or (D) of this section in which
the court determines that the agency acted in a
manner which was intentional or willful, the
United States shall be liable to the individual in an
amount equal to the sum of—
(A) actual damages sustained by the individual
as a result of the refusal or failure, but in no case
shall a person entitled to recovery receive less
than the sum of $1,000; and
(B) the costs of the action together with
reasonable attorney fees as determined by the
court.
(5) An action to enforce any liability created under
this section may be brought in the district court of
the United States in the district in which the
complainant resides, or has his principal place of
business, or in which the agency records are
situated, or in the District of Columbia, without
regard to the amount in controversy, within two
years from the date on which the cause of action
arises, except that where an agency has materially
and willfully misrepresented any information
required under this section to be disclosed to an

42a
individual and the information so misrepresented
is material to establishment of the liability of the
agency to the individual under this section, the
action may be brought at any time within two years
after discovery by the individual of the
misrepresentation. Nothing in this section shall be
construed to authorize any civil action by reason of
any injury sustained as the result of a disclosure of
a record prior to September 27, 1975.
(h) RIGHTS OF LEGAL GUARDIANS.—
For the purposes of this section, the parent of any
minor, or the legal guardian of any individual who
has been declared to be incompetent due to physical
or mental incapacity or age by a court of competent
jurisdiction, may act on behalf of the individual.
(i)
(1) CRIMINAL PENALTIES.—
Any officer or employee of an agency, who by virtue
of his employment or official position, has
possession of, or access to, agency records which
contain individually identifiable information the
disclosure of which is prohibited by this section or
by rules or regulations established thereunder, and
who knowing that disclosure of the specific
material is so prohibited, willfully discloses the
material in any manner to any person or agency
not entitled to receive it, shall be guilty of a
misdemeanor and fined not more than $5,000.
(2) Any officer or employee of any agency who
willfully maintains a system of records without
meeting the notice requirements of subsection
(e)(4) of this section shall be guilty of a
misdemeanor and fined not more than $5,000.

43a
(3) Any person who knowingly and willfully
requests or obtains any record concerning an
individual from an agency under false pretenses
shall be guilty of a misdemeanor and fined not
more than $5,000.
(j) GENERAL EXEMPTIONS.—The head of any agency
may promulgate rules, in accordance with the
requirements (including general notice) of sections
553(b)(1), (2), and (3), (c), and (e) of this title, to
exempt any system of records within the agency from
any part of this section except subsections (b), (c)(1)
and (2), (e)(4)(A) through (F), (e)(6), (7), (9), (10), and
(11), and (i) if the system of records is—
(1) maintained by the Central Intelligence Agency;
or
(2) maintained by an agency or component thereof
which performs as its principal function any
activity pertaining to the enforcement of criminal
laws, including police efforts to prevent, control, or
reduce crime or to apprehend criminals, and the
activities of prosecutors, courts, correctional,
probation, pardon, or parole authorities, and which
consists of (A) information compiled for the
purpose of identifying individual criminal offenders
and alleged offenders and consisting only of
identifying data and notations of arrests, the
nature and disposition of criminal charges,
sentencing, confinement, release, and parole and
probation status; (B) information compiled for the
purpose of a criminal investigation, including
reports of informants and investigators, and
associated with an identifiable individual; or (C)
reports identifiable to an individual compiled at
any stage of the process of enforcement of the

44a
criminal laws from arrest or indictment through
release from supervision.
At the time rules are adopted under this
subsection, the agency shall include in the
statement required under section 553(c) of this
title, the reasons why the system of records is to be
exempted from a provision of this section.
(k) SPECIFIC EXEMPTIONS.—The head of any agency
may promulgate rules, in accordance with the
requirements (including general notice) of sections
553(b)(1), (2), and (3), (c), and (e) of this title, to
exempt any system of records within the agency from
subsections (c)(3), (d), (e)(1), (e)(4)(G), (H), and (I)
and (f) of this section if the system of records is—
(1) subject to the provisions of section 552(b)(1) of
this title;
(2) investigatory material compiled for law
enforcement purposes, other than material within
the scope of subsection (j)(2) of this section:
Provided, however, That if any individual is denied
any right, privilege, or benefit that he would
otherwise be entitled by Federal law, or for which
he would otherwise be eligible, as a result of the
maintenance of such material, such material shall
be provided to such individual, except to the extent
that the disclosure of such material would reveal
the identity of a source who furnished information
to the Government under an express promise that
the identity of the source would be held in
confidence, or, prior to the effective date of this
section, under an implied promise that the identity
of the source would be held in confidence;
(3) maintained in connection with providing
protective services to the President of the United

45a
States or other individuals pursuant to section
3056 of title 18;
(4) required by statute to be maintained and used
solely as statistical records;
(5) investigatory material compiled solely for the
purpose of determining suitability, eligibility, or
qualifications for Federal civilian employment,
military service, Federal contracts, or access to
classified information, but only to the extent that
the disclosure of such material would reveal the
identity of a source who furnished information to
the Government under an express promise that the
identity of the source would be held in confidence,
or, prior to the effective date of this section, under
an implied promise that the identity of the source
would be held in confidence;
(6) testing or examination material used solely to
determine individual qualifications for appointment or promotion in the Federal service the
disclosure of which would compromise the
objectivity or fairness of the testing or examination
process; or
(7) evaluation material used to determine
potential for promotion in the armed services, but
only to the extent that the disclosure of such
material would reveal the identity of a source who
furnished information to the Government under an
express promise that the identity of the source
would be held in confidence, or, prior to the
effective date of this section, under an implied
promise that the identity of the source would be
held in confidence.
At the time rules are adopted under this
subsection, the agency shall include in the

46a
statement required under section 553(c) of this
title, the reasons why the system of records is to be
exempted from a provision of this section.
(l)
(1) ARCHIVAL RECORDS.—
Each agency record which is accepted by the
Archivist of the United States for storage,
processing, and servicing in accordance with
section 3103 of title 44 shall, for the purposes of
this section, be considered to be maintained by the
agency which deposited the record and shall be
subject to the provisions of this section. The
Archivist of the United States shall not disclose the
record except to the agency which maintains the
record, or under rules established by that agency
which are not inconsistent with the provisions of
this section.
(2) Each agency record pertaining to an
identifiable individual which was transferred to the
National Archives of the United States as a record
which has sufficient historical or other value to
warrant its continued preservation by the United
States Government, prior to the effective date of
this section, shall, for the purposes of this section,
be considered to be maintained by the National
Archives and shall not be subject to the provisions
of this section, except that a statement generally
describing such records (modeled after the
requirements relating to records subject to
subsections (e)(4)(A) through (G) of this section)
shall be published in the Federal Register.
(3) Each agency record pertaining to an
identifiable individual which is transferred to the
National Archives of the United States as a record
which has sufficient historical or other value to

47a
warrant its continued preservation by the United
States Government, on or after the effective date of
this section, shall, for the purposes of this section,
be considered to be maintained by the National
Archives and shall be exempt from the
requirements of this section except subsections
(e)(4)(A) through (G) and (e)(9) of this section.
(m)
(1) GOVERNMENT CONTRACTORS.—
When an agency provides by a contract for the
operation by or on behalf of the agency of a system
of records to accomplish an agency function, the
agency shall, consistent with its authority, cause
the requirements of this section to be applied to
such system. For purposes of subsection (i) of this
section any such contractor and any employee of
such contractor, if such contract is agreed to on or
after the effective date of this section, shall be
considered to be an employee of an agency.
(2) A consumer reporting agency to which a record
is disclosed under section 3711(e) of title 31 shall
not be considered a contractor for the purposes of
this section.
(n) MAILING LISTS.—
An individual’s name and address may not be sold or
rented by an agency unless such action is specifically
authorized by law. This provision shall not be
construed to require the withholding of names and
addresses otherwise permitted to be made public.
(o) MATCHING AGREEMENTS.—
(1) No record which is contained in a system of
records may be disclosed to a recipient agency or
non-Federal agency for use in a computer matching
program except pursuant to a written agreement

48a
between the source agency and the recipient
agency or non-Federal agency specifying—
(A) the purpose and
conducting the program;

legal

authority

for

(B) the justification for the program and the
anticipated results, including a specific estimate
of any savings;
(C) a description of the records that will be
matched, including each data element that will
be used, the approximate number of records that
will be matched, and the projected starting and
completion dates of the matching program;
(D) procedures for providing individualized
notice at the time of application, and notice
periodically thereafter as directed by the Data
Integrity Board of such agency (subject to
guidance provided by the Director of the Office of
Management and Budget pursuant to subsection
(v)), to—
(i) applicants for and recipients of financial
assistance or payments under Federal benefit
programs, and
(ii) applicants for and holders of positions as
Federal personnel,
that any information provided by such
applicants, recipients, holders, and individuals
may be subject to verification through
matching programs;
(E) procedures
for
verifying
information
produced in such matching program as required
by subsection (p);
(F) procedures for the retention and timely
destruction of identifiable records created by a

49a
recipient agency or non-Federal agency in such
matching program;
(G) procedures for ensuring the administrative,
technical, and physical security of the records
matched and the results of such programs;
(H) prohibitions on duplication and redisclosure
of records provided by the source agency within
or outside the recipient agency or the nonFederal agency, except where required by law or
essential to the conduct of the matching program;
(I) procedures governing the use by a recipient
agency or non-Federal agency of records provided
in a matching program by a source agency,
including procedures governing return of the
records to the source agency or destruction of
records used in such program;
(J) information on assessments that have been
made on the accuracy of the records that will be
used in such matching program; and
(K) that the Comptroller General may have
access to all records of a recipient agency or a
non-Federal agency that the Comptroller General
deems necessary in order to monitor or verify
compliance with the agreement.
(2)
(A) A copy of each agreement entered into
pursuant to paragraph (1) shall—
(i) be transmitted to the Committee on
Governmental Affairs of the Senate and the
Committee on Government Operations of the
House of Representatives; and
(ii) be available upon request to the public.

50a
(B) No such agreement shall be effective until 30
days after the date on which such a copy is
transmitted pursuant to subparagraph (A)(i).
(C) Such an agreement shall remain in effect
only for such period, not to exceed 18 months, as
the Data Integrity Board of the agency
determines is appropriate in light of the
purposes, and length of time necessary for the
conduct, of the matching program.
(D) Within 3 months prior to the expiration of
such an agreement pursuant to subparagraph
(C), the Data Integrity Board of the agency may,
without additional review, renew the matching
agreement for a current, ongoing matching
program for not more than one additional year
if—
(i) such program will be conducted without
any change; and
(ii) each party to the agreement certifies to
the Board in writing that the program has
been conducted in compliance with the
agreement.
(p) VERIFICATION
FINDINGS.—

AND

OPPORTUNITY

TO

CONTEST

(1) In order to protect any individual whose
records are used in a matching program, no
recipient agency, non-Federal agency, or source
agency may suspend, terminate, reduce, or make a
final denial of any financial assistance or payment
under a Federal benefit program to such
individual, or take other adverse action against
such individual, as a result of information produced
by such matching program, until—

51a
(A)
(i) the agency has independently verified the
information; or
(ii) the Data Integrity Board of the agency, or
in the case of a non-Federal agency the Data
Integrity Board of the source agency,
determines in accordance with guidance issued
by the Director of the Office of Management
and Budget that—
(I) the
information
is
limited
to
identification and amount of benefits paid by
the source agency under a Federal benefit
program; and
(II) there is a high degree of confidence that
the information provided to the recipient
agency is accurate;
(B) the individual receives a notice from the
agency containing a statement of its findings and
informing the individual of the opportunity to
contest such findings; and
(C)
(i) the expiration of any time period
established for the program by statute or
regulation for the individual to respond to that
notice; or
(ii) in the case of a program for which no such
period is established, the end of the 30-day
period beginning on the date on which notice
under subparagraph (B) is mailed or otherwise
provided to the individual.
(2) Independent verification referred to in paragraph (1) requires investigation and confirmation
of specific information relating to an individual

52a
that is used as a basis for an adverse action against
the individual, including where applicable investigation and confirmation of—
(A) the amount of any asset or income
involved;
(B) whether such individual actually has or
had access to such asset or income for such
individual’s own use; and
(C) the period or periods when the individual
actually had such asset or income.
(3) Notwithstanding paragraph (1), an agency may
take any appropriate action otherwise prohibited
by such paragraph if the agency determines that
the public health or public safety may be adversely
affected or significantly threatened during any
notice period required by such paragraph.
(q) SANCTIONS.—
(1) Notwithstanding any other provision of law, no
source agency may disclose any record which is
contained in a system of records to a recipient
agency or non-Federal agency for a matching
program if such source agency has reason to believe
that the requirements of subsection (p), or any
matching agreement entered into pursuant to
subsection (o), or both, are not being met by such
recipient agency.
(2) No source agency may renew a matching
agreement unless—
(A) the recipient agency or non-Federal agency
has certified that it has complied with the
provisions of that agreement; and
(B) the source agency has no reason to believe
that the certification is inaccurate.

53a
(r) REPORT ON NEW SYSTEMS
PROGRAMS.—

AND

MATCHING

Each agency that proposes to establish or make a
significant change in a system of records or a
matching program shall provide adequate advance
notice of any such proposal (in duplicate) to the
Committee on Government Operations of the House
of Representatives, the Committee on Governmental
Affairs of the Senate, and the Office of Management
and Budget in order to permit an evaluation of the
probable or potential effect of such proposal on the
privacy or other rights of individuals.
(s) BIENNIAL
REPORT.—The
President
shall
biennially submit to the Speaker of the House of
Representatives and the President pro tempore of the
Senate a report—
(1) describing the actions of the Director of the
Office of Management and Budget pursuant to
section 6 of the Privacy Act of 1974 during the
preceding 2 years;
(2) describing the exercise of individual rights of
access and amendment under this section during
such years;
(3) identifying changes in or additions to systems
of records;
(4) containing such other information concerning
administration of this section as may be necessary
or useful to the Congress in reviewing the
effectiveness of this section in carrying out the
purposes of the Privacy Act of 1974.

54a
(t)
(1) EFFECT OF OTHER LAWS.—
No agency shall rely on any exemption contained in
section 552 of this title to withhold from an
individual any record which is otherwise accessible
to such individual under the provisions of this
section.
(2) No agency shall rely on any exemption in this
section to withhold from an individual any record
which is otherwise accessible to such individual
under the provisions of section 552 of this title.
(u) DATA INTEGRITY BOARDS.—
(1) Every agency conducting or participating in a
matching program shall establish a Data Integrity
Board to oversee and coordinate among the various
components of such agency the agency’s
implementation of this section.
(2) Each Data Integrity Board shall consist of
senior officials designated by the head of the
agency, and shall include any senior official
designated by the head of the agency as responsible
for implementation of this section, and the
inspector general of the agency, if any. The
inspector general shall not serve as chairman of the
Data Integrity Board.
(3) Each Data Integrity Board—
(A) shall review, approve, and maintain all
written agreements for receipt or disclosure of
agency records for matching programs to ensure
compliance with subsection (o), and all relevant
statutes, regulations, and guidelines;
(B) shall review all matching programs in which
the agency has participated during the year,

55a
either as a source agency or recipient agency,
determine compliance with applicable laws,
regulations, guidelines, and agency agreements,
and assess the costs and benefits of such
programs;
(C) shall review all recurring matching
programs in which the agency has participated
during the year, either as a source agency or
recipient agency, for continued justification for
such disclosures;
(D) shall compile an annual report, which shall
be submitted to the head of the agency and the
Office of Management and Budget and made
available to the public on request, describing the
matching activities of the agency, including—
(i) matching programs in which the agency
has participated as a source agency or
recipient agency;
(ii) matching agreements proposed under
subsection (o) that were disapproved by the
Board;
(iii) any changes in membership or structure
of the Board in the preceding year;
(iv) the reasons for any waiver of
ment in paragraph (4) of this
completion and submission of a
analysis prior to the approval of
program;

the requiresection for
cost-benefit
a matching

(v) any violations of matching agreements
that have been alleged or identified and any
corrective action taken; and

56a
(vi) any other information required by the
Director of the Office of Management and
Budget to be included in such report;
(E) shall serve as a clearinghouse for receiving
and providing information on the accuracy,
completeness, and reliability of records used in
matching programs;
(F) shall provide interpretation and guidance to
agency components and personnel on the
requirements of this section for matching
programs;
(G) shall review agency recordkeeping and
disposal policies and practices for matching
programs to assure compliance with this section;
and
(H) may review and report on any agency
matching activities that are not matching
programs.
(4)
(A) Except as provided in subparagraphs (B)
and (C), a Data Integrity Board shall not approve
any written agreement for a matching program
unless the agency has completed and submitted
to such Board a cost-benefit analysis of the
proposed program and such analysis demonstrates that the program is likely to be cost
effective.
(B) The Board may waive the requirements of
subparagraph (A) of this paragraph if it
determines in writing, in accordance with
guidelines prescribed by the Director of the Office
of Management and Budget, that a cost-benefit
analysis is not required.

57a
(C) A cost-benefit analysis shall not be required
under subparagraph (A) prior to the initial
approval of a written agreement for a matching
program that is specifically required by statute.
Any subsequent written agreement for such a
program shall not be approved by the Data
Integrity Board unless the agency has submitted
a cost-benefit analysis of the program as
conducted under the preceding approval of such
agreement.
(5)
(A) If a matching agreement is disapproved by a
Data Integrity Board, any party to such
agreement may appeal the disapproval to the
Director of the Office of Management and
Budget. Timely notice of the filing of such an
appeal shall be provided by the Director of the
Office of Management and Budget to the
Committee on Governmental Affairs of the
Senate and the Committee on Government
Operations of the House of Representatives.
(B) The Director of the Office of Management
and Budget may approve a matching agreement
notwithstanding the disapproval of a Data
Integrity Board if the Director determines that—
(i) the matching program will be consistent
with all applicable legal, regulatory, and policy
requirements;
(ii) there is adequate evidence that the
matching agreement will be cost-effective; and
(iii) the matching program is in the public
interest.

58a
(C) The decision of the Director to approve a
matching agreement shall not take effect until 30
days after it is reported to committees described
in subparagraph (A).
(D) If the Data Integrity Board and the Director
of the Office of Management and Budget
disapprove a matching program proposed by the
inspector general of an agency, the inspector
general may report the disapproval to the head of
the agency and to the Congress.
(6) In the reports required by paragraph (3)(D),
agency matching activities that are not matching
programs may be reported on an aggregate basis, if
and to the extent necessary to protect ongoing law
enforcement or counterintelligence investigations.
(v) OFFICE OF MANAGEMENT AND BUDGET
RESPONSIBILITIES.—The Director of the Office of
Management and Budget shall—
(1) develop and, after notice and opportunity for
public comment, prescribe guidelines and
regulations for the use of agencies in implementing
the provisions of this section; and
(2) provide continuing assistance to and oversight
of the implementation of this section by agencies.
(w) APPLICABILITY TO BUREAU OF CONSUMER
FINANCIAL PROTECTION.—
Except as provided in the Consumer Financial
Protection Act of 2010, this section shall apply with
respect to the Bureau of Consumer Financial
Protection.

59a
Appendix E
FEDERAL REGISTER

__________
WEDNESDAY, JULY 9, 1975
WASHINGTON, D.C.
Volume 40 ● Number 132
PART III

__________
OFFICE OF MANAGEMENT AND BUDGET

__________
PRIVACY ACT IMPLEMENTATION

__________
Guidelines and Responsibilities

__________
Page 28957
NOTICES
pertaining to him, (2) permit an individual to review
any record pertaining to him which is contained in a
system of records, (3) permit the individual to be
accompanied for the purpose by a person of his
choosing, and (4) permit the individual to obtain a
copy of any such record in a form comprehensible to
him at a reasonable cost. This provision it should be
noted, gives an individual the right of access only to

60a
records which are contained in a system of records.
See (a) (5) , above.
This language further suggests that the Congress
did not intend to require that an individual be given
access to information which the agency does not
retrieve by reference to his or her name or some other
identifying particular. See subsection (a)(5). If an
individual is named in a record about someone else
(or some other type of entity) and the agency only
retrieves the portion pertaining to him by reference
to the other person’s name, (or some organization/
subject identifier), the agency is not required to grant
him access. Indeed, if this were not the case, it would
be necessary to establish elaborate cross-references
among records, thereby increasing the potential for
privacy abuses. The following examples illustrate
some applications of this standard.
1. A record on Joan Doe as an employee in a file of
employees from which material is accessed by
reference to her name (or some identifying number).
This is the simplest case of a record in a system of
records and Joan Doe would have a right of access.
2. A reference to Joan Doe in a record about James
Smith in the same file. This is also a record within a
system but Joan Doe would not have to be granted
access unless the agency had devised and used an
indexing capability to gain access to her record in
James Smith’s file.
3. A record about Joan Doe in a contract source
evaluation file about her employer, Corporation X,
which is not accessed by reference to individuals’
names, or other identifying particulars. This is a
record which is not in a system of records and,
therefore, Joan Doe would not have a right of access
to it. If, as in 2, above, an indexing capability were

61a
developed and used, however, such a system would
become a system of records to which Joan Doe would
have a right of access.
Agencies may establish fees for making copies of an
individual’s record but not for the cost of searching
for a record or reviewing it (subsection (f)(5)). When
the agency makes a copy of a record as a necessary
part of its process of making the record available for
review (as distinguished from responding to a request
by an individual for a copy of a record), no fee may be
charged. It should be noted that this provision differs
from the access and fees provisions of the Freedom of
Information Act
The granting of access may not be conditioned upon
any requirement to state or otherwise justify the need
to gain access.
Agencies shall establish requirements to verify the
identity of the requester. Such requirements shall be
kept to a minimum. They shall only be established
when necessary reasonably to assure that an
individual is not improperly granted access to records
pertaining to another individual and shall not unduly
impede the individual’s right of access. Procedures for
verifying identity will vary depending upon the
nature of the records to which access is sought. For
example, no verification of identity will be required of
individuals seeking access to records which are
otherwise available to any member of the public
under 5 U.S.C. 552, the Freedom of Information Act.
However, far more stringent measures should be
utilized when the records sought to be accessed are
medical or other sensitive records.
For individuals who seek access in person,
requirements for verification of identity should be
limited to information or documents which an

62a
individual is likely to have readily available (e.g., a
driver’s license, employee identification card,
Medicare card). However, if the individual can
provide no other suitable documentation, the agency
should request a signed statement from the
individual asserting his or her identity and
stipulating that the individual understands that
knowingly or willfully seeking or obtaining access to
records about another individual under false
pretenses is punishable by a fine of up to $5,000.
(Subsection (i) (3).)
For systems to which access is granted by mail (by
virtue of their location) verification of identity may
consist of the providing of certain minimum
identifying data; e.g., name, date of birth, or system
personal identifier (if known to the individual).
Where the sensitivity of the data warrants it; (i.e.,
unauthorized access could cause harm or
embarrassment to the individual), a signed notarized
statement may be required or other reasonable
means of verifying identity which the agency may
determine to be necessary, depending on the degree
of sensitivity of the data involved.
NOTE: That section 7 of the Act forbids an agency to
deny an individual any right (including access to a
record) for refusing to disclose a Social Security
Number unless disclosure is required by Federal
statute or by other laws or regulations adopted prior
to January 1, 1975.
Agencies are also permitted to require that an
individual who wishes to be accompanied by another
person when reviewing a record furnish a written
statement authorizing discussion of his or her record
in the presence of the accompanying person. This
provision may not be used to require that individuals

63a
who request access and wish to authorize other
persons to accompany them provide any reasons for
the access or for the accompanying person’s presence.
It is designed to avoid disputes over whether the
individual granted permission for disclosure of
information to the accompanying person.
Agency procedures for complying with the
individual access provisions will necessarily vary
depending upon the size and nature of the system of
records. Large computer-based systems of records
clearly require a different approach than do small,
regionally dispersed, manually maintained systems.
Nevertheless the basic requirements are constant,
namely the right of the individual to have access to a
record pertaining to him and to have a copy made of
all or any portion of such records in a form which is
comprehensible to him. Putting information into a
comprehensible form suggests converting computer
codes to their literal meaning but not necessarily an
extensive tutorial in the agency’s procedures in which
the record is used.
Neither the requirements to grant access nor to
provide copies necessarily require that the physical
record itself be made available. The form in which the
record is kept (e.g., on magnetic tape) or the context
of the record (e.g., access to a document may disclose
records about other individuals which are not
relevant to the request) may require that a record be
extracted or translated in some manner; e.g., to
expunge the identity of a confidential source.
Whenever possible, however, the requested record
should be made available in the form in which it is
maintained by the agency and the extraction or
translation process may not be used to withhold
information in a record about the individual who
requests it unless the denial of access is specifically

64a
provided for under rules issued pursuant to one of the
exemption provisions (subsections (j) and (k)).
Subsection (f)(3) provides that agencies may
establish “a special procedure, if deemed necessary,
for the disclosure to an individual of medical records,
including psychological records, pertaining to him.”
In addressing this provision the House committee
said:
If, in the judgment of the agency, the transmission
of medical information directly to a requesting
individual could have an adverse effect upon such
individual, the rules which the agency promulgates
should provide means whereby an individual who
would be adversely affected by receipt of such data
may be apprised of it in a manner which would not
cause such adverse effects. An example of a rule
serving such purpose would be transmission to a
doctor named by the requesting individual. (House
Report 93–1416, pp. 16–17)
Thus, while the right of individuals to have access
to medical and psychological records pertaining to
them is clear, the nature and circumstances of the
disclosure may warrant special procedures.
While the Act provides no specific guidance on this
subject, agencies should acknowledge requests for
access to records within 10 days of receipt of the
request (excluding Saturdays, Sundays, and legal
public holidays). Wherever practicable, that
acknowledgement should indicate whether or not
access can be granted and, if so, when. When access
is to be granted, agencies will normally provide
access to a record within 30 days (excluding
Saturdays,

